     Department of Homeland Security

     ��������������������������



    The City of Raleigh, North Carolina, Properly 

Accounted for and Expended FEMA Public Assistance 

    Grant Funds Awarded for April 2011 Disaster





OIG-14-34-D                           February 2014 

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 I www.oig.dhs.gov


                                              F,-[ ~.~ I'   1
                                                            I
                                                                ';t4
                                                                ~ I


MEMORANDUM FOR:                        Major P. (Phil) May

                                                                       ;anagement Agency

FROM:
                                       As i nt Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:                               The City of Raleigh, North Carolina, Properly Accounted for
                                       and Expended FEMA Public Assistance Grant Funds
                                       Awarded for April2011 Disaster
                                       FEMA Disaster Number 1969-DR-NC
                                       Audit Report Number OIG-14-34-D

We audited Public Assistance funds awarded to the City of Raleigh, North Carolina (City)
(FIPS Code 183-55000-00). Our audit objective was to determine whether the City
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The City received a Public Assistance award of $4.3 million from the North Carolina
Emergency Management Agency (State)_ a FEMA grantee, for damages resulting from
severe storms, tornadoes, and straight-line winds that occurred in April 2011. The award
provided 75 percent FEMA funding for debris removal; emergency protective measures;
and permanent repairs to buildings, utilities and other facilities. The award consisted of
                                         1
14 large projects and 27 small projects.

We audited six large projects and four small projects with awards totaling $2.5 million
(see Exhibit, Schedule of Projects Audited). The audit covered the period from April 16,
2011, to January 7, 2014, during which the City claimed $2.5 million of costs under the
projects reviewed. At the time of our audit, the City had completed work on all projects
included in our scope and had submitted final claims to the State for expenditures under
those projects.

We conducted this performance audit between August 2013 and January 2014 pursuant
to the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the

1
    Federal regulations in effect at the time of disaster set the large project threshold at $63,900.
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed City, State, and FEMA personnel; reviewed the City’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary to accomplish our audit objective.
We did not assess the adequacy of the City’s internal controls applicable to its grant
activities because it was not necessary to accomplish our audit objective. However, we
gained an understanding of the City’s method of accounting for disaster-related costs
and its policies and procedures for administering activities provided for under the FEMA
award.


                                   RESULTS OF AUDIT

For the projects we reviewed, the City properly accounted for and expended FEMA
funds according to Federal regulations and FEMA guidelines.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials at an exit conference
held on January 21, 2014. Because the audit did not identify issues requiring further
action from FEMA, we consider this audit closed.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are David Kimble, Director; Adrianne Bryant, Audit
Manager; Jerry Aubin, Auditor-in-charge; and Calbert Flowers, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                             2                                  OIG-14-34-D

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                                                          Exhibit

                             Schedule of Projects Audited

                                                         FEMA
     Project                                           Category of   Amount
    Number                   Project Scope                Work       Awarded
 Large Projects:
                   Debris Removal –
       335         Public Works Department                  A        $1,058,599
                   Debris Removal –
       373         Public Works Department                  A         $599,420
                   Emergency Protective Measures –
       471         Public Works Department                  A         $280,176
                   Debris Removal – Public Works
       423         Department                               A         $228,331
                   Debris Removal – Solid Waste
       470         Department                               A         $164,749
       375         Emergency Protective Measures            B         $114,811
 Small Projects:
       413         Parks and Recreation                     G           $22,678
       364         Buildings and Equipment                  E           $23,224
       278         Buildings and Equipment                  E           $25,114
       442         Buildings and Equipment                  E           $33,047
 Total                                                               $2,550,149




www.oig.dhs.gov                              3                         OIG-14-34-D

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

                                                                        Appendix



                                   Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (G-13-055-EMO-FEMA)

State
State Auditor, North Carolina
Executive Director, North Carolina Emergency Management Agency

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Sub grantee
Audit Liaison, City of Raleigh, North Carolina

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                              4                          OIG-14-34-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
